         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report




       EPA Should Improve Oversight of
       Long-Term Monitoring at
       PAB Oil and Chemical Services,
       Inc., Superfund Site in Louisiana

       Report No. 10-P-0229

       September 21, 2010
Report Contributors:                            Carolyn Copper
                                                Patrick Milligan
                                                Kathryn Hess
                                                Denise Rice
                                                Martha Chang




Abbreviations

EPA          U.S. Environmental Protection Agency
NPL          National Priorities List
OIG          Office of Inspector General
RPM          Remedial Project Manager


Cover photo: Monitoring well MW-7 at the remediated PAB Oil and Chemical Services, Inc.,
             Superfund Site, Abbeville, Louisiana, March 2008. (EPA OIG photo)
                       U.S. Environmental Protection Agency 	                                                10-P-0229
                                                                                                     September 21, 2010
                       Office of Inspector General


                       At a Glance
                                                                             Catalyst for Improving the Environment

Why We Did This Review             EPA Should Improve Oversight of Long-Term
The Office of Inspector
                                   Monitoring at PAB Oil and Chemical Services, Inc.,
General (OIG) is testing long-     Superfund Site in Louisiana
term monitoring results at
Superfund sites the U.S.            What We Found
Environmental Protection
Agency (EPA) has deleted           Our independent ground water sampling results from the PAB Oil and Chemical
from the National Priorities       Services, Inc., Superfund Site were consistent with Region 6’s valid historical
List (NPL). PAB Oil and            results. However, we found that Region 6 accepted from the responsible parties’
Chemical Services, Inc.,           contractor two types of invalid ground water data at PAB and included that invalid
Superfund Site, in Abbeville,      data in its analyses. For two wells, data were collected on stagnant water at the
Louisiana, is one of eight sites   bottom of the wells, below screen openings where the water enters the wells.
being reviewed. In March           Consequently, data on both water quality and water levels were collected contrary
2008, the OIG obtained             to accepted procedures and were invalid. Ground water level measurements are
ground water samples from          needed to understand the direction ground water flows. Measures of water quality
the site and conducted an          are needed to ensure that the contamination treatment actions are successful and
inspection.                        ground water quality does not degrade.

Background                         Region 6 said it was aware of the declined water level condition, but noted it had
                                   data from other wells that were sufficient to determine the direction of ground
EPA placed PAB on the              water flow and that the remedy was protective of human health and the
Superfund NPL in 1989.             environment. We agree that the invalid data did not have adverse implications for
Recovery and disposal of oil       the Region’s protection decision because ground water flows past these two wells
and gas wastes had                 before flowing under the area where contaminated soils and wastes were capped.
contaminated the site with         However, if ground water conditions were to change, the invalid data could
arsenic, barium, and organic       impede the Region’s ability to determine whether the site’s clean-up remedy is
compounds. Remedial action         still protective and whether the network of ground water monitoring wells remains
included treating,                 effective.
consolidating, and capping the
onsite soils and wastes.            What We Recommend
Region 6 deleted PAB from
the NPL in 2000 after it met       We recommended that Region 6 improve oversight at PAB by amending the site’s
clean-up goals.                    most recent Five-Year Review to identify invalid data, and by modifying the
                                   long-term monitoring plan to ensure collection and reporting of valid data on site
For further information,           conditions. The Region’s official response only partly addressed one
contact our Office of              recommendation and did not address the other. In a follow-up meeting, Region 6
Congressional, Public Affairs
and Management at                  staff committed to completing actions that would meet the intent of both
(202) 566-2391.                    recommendations. We consider both recommendations to be “undecided with
                                   resolution efforts in progress.” In its final response to this report, Region 6 should
To view the full report,           provide a corrective actions plan for both recommendations, including estimated
click on the following link:
                                   or actual milestone completion dates.
www.epa.gov/oig/reports/2010/
20100921-10-P-0229.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                     THE INSPECTOR GENERAL




                                         September 21, 2010

MEMORANDUM

SUBJECT:	               EPA Should Improve Oversight of Long-Term Monitoring at
                        PAB Oil and Chemical Services, Inc., Superfund Site in Louisiana
                        Report No. 10-P-0229


FROM:	                  Arthur A. Elkins, Jr.
                        Inspector General

TO:                     Al Armendariz
                        Region 6 Administrator


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains the findings from our
sampling at the PAB Oil and Chemical Services, Inc., Superfund Site and corrective actions the
OIG recommends. Region 6 provided comments on our draft report. This report represents the
opinion of the OIG and does not necessarily represent the final EPA position. Final
determinations on matters in this report will be made by EPA managers in accordance with
established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time, then adding the contractor costs – is
$202,633.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. Your response will be posted on the OIG’s public Website,
along with our comments on your response. Your response should be provided in an Adobe PDF
file that complies with the accessibility requirements of section 508 of the Rehabilitation Act of
1973, as amended. If your response contains data that you do not want to be released to the
public, you should identify the data for redaction. You should include a corrective actions plan
for agreed-upon actions, including milestone dates. We have no objections to the further release
of this report to the public. This report will be available at http://www.epa.gov/oig.
If you or your staff have any questions regarding this report, please contact Wade Najjum,
Assistant Inspector General, at (202) 566-0832 or najjum.wade@epa.gov; or Carolyn Copper,
Director for Program Evaluation, Hazardous Waste Issues, at (202) 566-0829 or
copper.carolyn@epa.gov.
EPA Should Improve Oversight of Long-Term Monitoring at                                                                      10-P-0229
PAB Oil and Chemical Services, Inc., Superfund Site in Louisiana



                                   Table of Contents 


Chapters 

   1     Introduction ........................................................................................................      1         


                 Purpose .......................................................................................................    1             

                 Background .................................................................................................       1             

                 Noteworthy Achievements...........................................................................                 1             

                 Scope and Methodology..............................................................................                2             


   2     Region 6 Included Invalid Data in Ground Water Analyses ...........................                                        3


                 Invalid Water Quality Data...........................................................................              3

                 Invalid Water Level Data ............................................................................              4

                 Conclusions ................................................................................................       5             

                 Recommendations .....................................................................................              5             

                 EPA Region 6 Response to Draft Report and OIG Evaluation ...................                                       5


   Status of Recommendations and Potential Monetary Benefits .............................                                          7         




Appendices 

   A     Details on Invalid Ground Water Level Data ....................................................                            8         


   B     Details on Sampling Methodology, Data Analyses, 

         and Results of Comparisons and Site Inspection .........................................                                  11     


   C     EPA Region 6 Response to Draft Report and OIG Evaluation .......................                                          13     


   D     Distribution ........................................................................................................     21 

                                                                                   10-P-0229 





                                Chapter 1

                                 Introduction

Purpose
          The Office of Inspector General (OIG) of the U.S. Environmental Protection
          Agency (EPA) is evaluating long-term monitoring at Superfund sites deleted from
          the National Priorities List (NPL). This evaluation is to determine whether EPA
          has valid and reliable data on the conditions of these sites. PAB Oil and Chemical
          Services, Inc., Superfund Site, in Abbeville, Louisiana, is one of eight sites being
          reviewed. At PAB, we collected ground water samples and conducted a site
          inspection. We compared our results to past results reported by EPA Region 6.

Background
          PAB was a recovery and disposal facility for mud and saltwater generated in oil
          and gas exploration and production. Operations at PAB started in 1978 and lasted
          for approximately 5 years. Site activities resulted in arsenic, barium, and organic
          compound contamination of onsite soil and wastes. EPA placed PAB on the
          Superfund NPL in 1989. After determining that remedial action had achieved the
          clean-up goals, Region 6 deleted PAB from the NPL in January 2000.

          The 1993 Record of Decision stated that ground water would be monitored for
          30 years to ensure that the contamination treatment actions are successful and
          ground water quality does not degrade. The responsible parties’ 1998 monitoring
          plan called for ground water levels to be measured and ground water samples to
          be collected semiannually. The newest plan, approved by Region 6 in 2009,
          states that the responsible parties will measure water levels in nine monitoring
          wells once per year and, prior to 2012, sample four of the wells twice and one
          well once to assess ground water quality.

          The Comprehensive Environmental Response, Compensation, and Liability Act
          (also known as Superfund) requires that Region 6 review every 5 years the
          protection provided by the remedial action at sites where contaminants were left
          in place. This is called the Five-Year Review. Region 6 based its Five-Year
          Reviews at PAB on the information the responsible parties submitted in their
          monitoring reports. The next Five-Year Review is required in 2012.

Noteworthy Achievements
          In 1991, the responsible parties conducted an emergency action to remove oil,
          water, and sludge from a large tank, which had damaged supports, and from three


                                           1

                                                                                  10-P-0229 



         other smaller tanks. In 1994, Region 6 issued a unilateral administrative order
         requiring the responsible parties to perform the remedial action described in the
         1993 Record of Decision. In response, the responsible parties drained
         contaminated water from the onsite pond, removed contaminated pond sediments,
         and backfilled the area with clean soil. They then consolidated, stabilized,
         solidified, and capped the contaminated material onsite.

         Since completion of the remedial actions, Region 6 has conducted two required
         Five-Year Reviews at PAB. Region 6 concluded in both Five-Year Reviews that
         the clean-up remedy was protective of human health and the environment and will
         remain so provided actions identified in the Five-Year Reviews are implemented.

Scope and Methodology
         We conducted the field work for this evaluation from January 2008 to August
         2010 in accordance with generally accepted government auditing standards.
         Those standards require that we plan and perform the evaluation to obtain
         sufficient, appropriate evidence to provide a reasonable basis for our findings and
         conclusions based on our evaluation objective. We believe that the evidence
         obtained provides a reasonable basis for our findings and conclusions based on
         our evaluation objective.

         We reviewed site documents, including monitoring reports, the Record of
         Decision and related documents, and the Five-Year Review reports. We
         interviewed the site’s remedial project managers (RPMs) from Region 6 and the
         Louisiana Department of Environmental Quality. From the site records, we
         assembled historical water level and water quality data. We invalidated data
         collected when the water level measurement showed the level was below the
         bottom of the well’s screen opening. The screen opening is the perforated part of
         the well through which ground water enters the well. In the situation where the
         measured water level was below the screen opening, the measurement and any
         sample that may have been taken do not represent conditions in the ground water.
         See Appendix A for details on invalid ground water level data.

         We collected ground water samples and conducted a site inspection in March
         2008. We compared our ground water sampling results to the historical sampling
         results we determined to be valid. Our independent sampling results were
         consistent with Region 6’s valid historical results. We also compared our results
         to federal drinking water standards, the only applicable water quality standards.
         Our sampling results did not exceed the applicable standards. Appendix B
         provides details on our sampling methodology, data analyses, and results.

         We requested that Region 6 provide official comments on this report. The Region
         provided its response, provided in Appendix C, on August 20, 2010.




                                          2

                                                                                 10-P-0229 





                                Chapter 2

              Region 6 Included Invalid Data in 

                  Ground Water Analyses 


          Region 6 accepted from the responsible parties’ contractor two types of invalid
          ground water data at PAB and included that invalid data in its analyses. For two
          wells, data were collected on stagnant water at the bottom of the wells, below
          screen openings where the water enters the wells. Consequently, data on both
          water quality and water levels were collected contrary to accepted procedures and
          were invalid. Ground water level measurements are needed to understand the
          direction ground water flows. Measures of water quality are needed to ensure that
          the clean-up remedy is successful and ground water quality does not degrade.
          Region 6 said it was aware in 2003 of the declined water level condition, but
          noted it had data from other wells that were sufficient to determine the direction
          of ground water flow and that the remedy was protective of human health and the
          environment. We agree that the invalid data did not have adverse implications for
          the Region’s protection decision because ground water flows past these two wells
          before flowing under the area where contaminated soils and wastes were capped.
          However, if ground water conditions were to change, the invalid data could
          impede the Region’s ability to determine whether the site’s clean-up remedy is
          still protective and whether the network of ground water monitoring wells
          remains effective.

Invalid Water Quality Data

          Region 6 included invalid ground water quality results in its 2002 and 2007 Five-
          Year Reviews of PAB. Six times, from 2001 through 2003, the contractor
          collected a water quality sample from a well (MW-3) even though the water level
          had dropped below the well’s screen opening, the part of the well through which
          water enters. This same sample collection error occurred again in 2007 for well
          MW-3, and for the first time in a second well, MW-4. In each of these cases, the
          contractor did not follow accepted procedures because the water sample was
          withdrawn from stagnant water at the bottom of the well and was not a
          representative ground water sample. Because the contractor did not obtain a
          representative ground water sample due to the low water level, the result was
          invalid.

          The Region 6 RPM told the OIG that he was aware of the declined water level in
          2003 but that he could determine remedy protectiveness using results from the
          other monitoring wells. The contractor sampled these other wells properly
          because their screen openings were set lower. Ground water flows past the two



                                           3

                                                                                 10-P-0229 



          problem wells and then under the part of the site where soil and wastes were
          treated, consolidated, and capped. We agree that water quality data from these
          two wells are not necessary for determining whether the remedy remains
          protective. However, assessing the validity of the water quality data received
          from the responsible parties is a fundamental step in the Region’s oversight
          activities. Although the RPM stated that he was aware of the declined water level
          problem, the RPM has not marked the water quality data as invalid in the site
          records.

Invalid Water Level Data
          Our analysis of the data that the responsible parties’ contractor submitted to
          Region 6 shows that most of the water level data collected since July 2000 from
          the two problem monitoring wells (MW-3 and MW-4) were invalid. Appendix A
          presents a data table and detailed description of invalid water level data. As
          noted, the data were invalid because at the time the responsible parties measured
          the water level, the level was below the well’s screen opening. Therefore, the
          measurement in the well did not represent the actual ground water level. The
          Region 6 RPM said that he first became aware of the problem with these two
          wells in 2003 when he was assigned the site. However, we found no evidence
          that the RPM marked the data as invalid in the site records or discussed the
          declined water level problem with the responsible parties and their contractor
          until we brought the problem to the RPM’s attention in 2009.

          Region 6 uses ground water level measurements to determine the direction
          ground water flows. A monitoring network aligned along the ground water flow
          direction is fundamental to decisions on the success of a clean-up remedy. If the
          direction changes, the network of wells used to monitor ground water quality also
          may need to change.

          The ground water levels at PAB declined about 5 feet from the start of the
          remedial investigation in 1991 to the middle of 2000, and have remained
          depressed (see table in Appendix A). Consequently, since July 2000, the
          measured level was below the well’s screen opening 11 of the 15 times the
          responsible parties’ contractor measured the water level in MW-3, and 14 of the
          15 times the water level was measured in MW-4,. These measurements are
          invalid because they do not represent the water level condition in the ground
          water.

          We agree at present with the RPM’s assessment that he can determine ground
          water flow conditions without measurements in these two wells. However, two
          long-term monitoring reports from the responsible parties’ contractor, from 2006
          and 2009, did not support the presumed northwest direction of ground water flow.
          Valid water level measurements in other years’ reports, dating back to the
          remedial investigation, supported the interpretation that ground water flow was
          toward the northwest. In 2006, the contractor reported that the direction had


                                          4

                                                                                  10-P-0229 



          shifted from the northwest to the southwest. In 2009, the contractor showed the
          direction ranging from the northwest to the east (see map in Appendix A).
          Region 6, as part of its oversight responsibilities, should have questioned the
          validity of these flow directions, removed the invalid data, and reevaluated the
          ground water flow direction.

Conclusions
          We documented occurrences of invalid site condition data received by Region 6
          from the responsible parties’ contractor. The invalid water quality and water level
          data do not have adverse implications for the Region’s determination that the
          clean-up remedy protects human health and the environment. However, Region 6
          has not taken steps to keep invalid data from the site records and improve its
          oversight of the contractor’s site data. Not addressing the collection, receipt, or
          disclosure of invalid data may result in the Region being unable to detect future
          conditions that show the monitoring network is not effective or the remedy is not
          protective of human health and the environment.

Recommendations
          We recommend that the Regional Administrator, Region 6:

          2-1 	 Issue an addendum to the 2007 Five-Year Review identifying the invalid
                data in the PAB site records, addressing how the invalid data affects the
                Region’s protectiveness determination, and establishing the valid ground
                water level and ground water quality records for PAB.

          2-2 	 Modify the long-term monitoring plan for PAB to include procedures that
                ensure the Region and the responsible parties collect and report valid
                information on site ground water level and ground water quality conditions.

EPA Region 6 Response to Draft Report and OIG Evaluation
          Region 6’s response to the draft report did not address Recommendation 2-1.
          Also, the Region responded that it had updated its operation and maintenance
          plan, and as such, Recommendation 2-2 should be closed. In a follow-up
          meeting, OIG and Region 6 personnel discussed the Region’s response and
          reached agreement on issues that the Region must respond to in its final response
          to this report. Region 6’s official comments and OIG’s evaluation are
          summarized below and included in full in Appendix C.

          Given the Region’s official written response, Recommendation 2-1 is designated
          in the final report as “undecided with resolution efforts in progress.” In our
          follow-up meeting, regional staff affirmed the Region’s commitment to issuing an
          addendum to the 2007 Five-Year Review Report. In its 90-day response to this



                                           5

                                                                           10-P-0229 



report, Region 6 should provide an actual or estimated milestone date for
completion of Recommendation 2-1.

In its official response to the report, Region 6 stated that because the operations
and maintenance plan had been updated, Recommendation 2-2 should be
designated as “closed.” We do not agree that this action fully addresses the
recommendation. In our follow-up meeting with the Region, we discussed the
additional needed actions. Region 6 staff committed to addressing the OIG’s
concerns. This recommendation is designated as “undecided with resolution
efforts in progress.” In its 90-day response, Region 6 should provide an
acceptable corrective actions plan, along with any planned or completed
milestone dates.




                                  6

                                                                                                                                        10-P-0229



                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                              POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                                  Planned
    Rec.    Page                                                                                                 Completion   Claimed     Agreed To
    No.      No.                          Subject                           Status1        Action Official          Date      Amount       Amount

    2-1       5     Issue an addendum to the 2007 Five-Year Review            U        Regional Administrator,
                    identifying the invalid data in the PAB site records,                    Region 6
                    addressing how the invalid data affects the
                    Region’s protectiveness determination, and
                    establishing the valid ground water level and
                    ground water quality records for PAB.

    2-2       5     Modify the long-term monitoring plan for PAB to           U        Regional Administrator,
                    include procedures that ensure the Region and the                        Region 6
                    responsible parties collect and report valid
                    information on site ground water level and ground
                    water quality conditions.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                  7

                                                                                      10-P-0229 



                                                                                   Appendix A

          Details on Invalid Ground Water Level Data

Our analysis of Region 6’s ground water level data for PAB shows that most of the water level
data collected since July 2000 from two monitoring wells (MW-3 and MW-4) were invalid.
We determined that the data were invalid because the reported water level was below the well’s
screen opening. If the water level in the ground water is below the bottom of the screen opening,
then ground water cannot flow into the well, and any water in the well is not representative of
ground water conditions.

Table A-1 presents the water level information as given in annual monitoring reports. The
earliest data and information on the elevations of the well screen openings are from the 1993
Remedial Investigation Report. As is shown in Table A-1, 14 of the 15 times the contractor
measured water levels since July 2000, the level was below well MW-4’s screen opening. The
same conditions were present at well MW-3 in 11 of the 15 times the contractor measured water
levels. The low ground water level in the two monitoring wells rendered them unusable for most
of the last 10 years. Table A-1 shows the invalid data in bold and italics.

Some of the uncharacteristic ground water flow directions reported in site documents occurred
because the responsible parties’ contractor included invalid data for wells MW-3 and MW-4.
The 2009 annual monitoring report provides one example in which the contractor presented
information on the ground water flow direction that was counter to the established direction
toward the northwest. Figure A-1 shows the contractor’s ground water map from the 2009
report. Region 6 should have questioned the validity of the map; not doing so demonstrated a
lack of oversight by the Region of the PAB monitoring activities.




                                                8

                                                                                                         10-P-0229 



Table A-1: Water Levels at PAB
                       Water level elevation, in feet relative to mean sea level
           Date    MW-1      MW-2 MW-3* MW-4*                MW-5     MW-6     MW-7                   MW-8         MW-9
     03/22/1991   -10.07    -10.38    -10.32     -10.32     -10.51   -10.52   -10.47                 -10.34       -10.31
     08/20/1991    -9.51     -9.81     -9.76      -9.77      -9.95    -9.99     -9.89                 -9.79        -9.76
     10/29/1991    -9.38     -9.71     -9.66      -9.65      -9.84    -9.85     -9.81                 -9.68        -9.64
     12/04/1991    -9.36     -9.68     -9.64      -9.63      -9.81    -9.85     -9.79                 -9.65        -9.62
     02/04/1992    -8.77     -9.10     -9.08      -9.05      -9.26    -9.23     -9.21                 -9.08        -9.07
     01/27/1999   -11.72    -12.06     -8.03     -12.02     -12.25   -12.25   -12.16                 -12.05       -12.02
     07/20/1999   -12.68    -13.00    -12.93     -12.94     -13.24   -13.23   -13.15                 -12.98       -12.95
     01/19/2000   -13.03    -13.35    -12.58     -13.31     -13.56   -13.55   -13.47                 -13.34       -13.30
 1 07/18/2000     -14.43    -14.73    -14.65     -14.65     -14.92   -14.96   -14.86                 -14.72       -14.66
 2 01/15/2001     -14.81    -15.23    -15.03     -15.47     -15.28   -15.37   -15.19                 -15.07       -15.05
 3 08/01/2001     -15.23    -15.52    -15.46     -15.22     -15.70   -15.77   -15.65                 -15.51       -15.47
 4 02/20/2002     -15.03    -15.22    -15.09     -15.64     -15.00   -14.23   -14.36                 -15.31       -15.26
 5 09/19/2002     -15.42    -15.72    -15.62     -14.92     -15.88   -15.93   -15.83                 -15.70       -15.66
 6 03/17/2003     -14.62    -14.95    -14.78     -14.92     -15.17   -15.17   -15.06                 -14.92       -14.88
 7 08/19/2003     -14.65    -14.94    -14.81     -14.89     -15.12   -15.18   -15.07                 -14.93       -14.90
 8 03/23/2004     -14.30    -14.60    -14.45     -14.50     -14.76   -14.84   -14.73                 -14.59       -14.54
 9 03/08/2005     -13.97    -14.28    -14.23     -14.23     -14.38   -14.54   -14.36                 -14.25       -14.24
10 03/31/2006     -15.01    -15.08    -15.00     -14.96     -15.15   -15.30   -15.97                 -15.06       -15.01
11 03/01/2007     -14.94    -15.26    -15.19     -15.22     -15.37   -15.46   -15.44                 -15.25       -15.22
12 01/02/2008     -14.73    -15.03    -14.98     -14.96     -15.13   -15.25   -15.17                 -15.02       -15.02
13 02/25/2009     -14.60    -14.92    -14.84     -14.90     -15.00   -15.12   -14.27                 -14.91       -14.87
14 05/11/2009     -14.58    -14.89    -14.58     -14.63     -14.83   -14.84 not reported             -14.87       -14.66
15    08/2009**   -15.31    -15.41    -15.30     -15.27     -15.41   -15.63   -15.45                 -15.39       -15.34

         Elevation of the bottom of the well’s screen opening, in feet relative to mean sea level
                     MW-1      MW-2     MW-3       MW-4    MW-5       MW-6       MW-7    MW-8                     MW-9
                      -96.1    -16.0     -14.7     -14.4    -16.8      -17.9      -16.9   -22.8                   -20.4

Sources: Remedial investigation and long-term monitoring reports for PAB.

   * Values recorded in bold and italics fall below the well’s screen opening, making them invalid.
  **	 Exact date of August 2009 measurements taken by responsible parties' contractor was not given in the site
     records.




                                                          9

                                                                                                 10-P-0229




Figure A-1: February 2009 Water Levels for PAB Ground Water Wells




                                                              EXPLANATION
                                                              Property Boundary

                                                              Line of Equal Groundwater Level (feet)

                                                              Direction of Groundwater Flow

                                                              Monitoring Well (Measured Groundwater
                                                              Level in feet above mean sea level)

                                                              Plugged and Abandoned Monitoring Well




Source: Responsible parties’ map of measured ground water levels at PAB, February 2009. The
map included invalid water levels at monitoring wells MW-3 and MW-4. The map's format was
simplified by the OIG in the following ways: the incorrect symbol for MW-10 was corrected, yellow
symbols were change to black for purposes of printing in black and white, and the explanation was
shortened in length.




                                                 10 

                                                                                        10-P-0229 



                                                                                    Appendix B

    Details on Sampling Methodology, Data Analyses,
     and Results of Comparisons and Site Inspection

Sampling Methodology
We acquired a qualified environmental contractor from the list of General Services
Administration contractors to measure water levels, take water quality samples from six ground
water monitoring wells, and conduct an inspection during March 3-7, 2008. We sampled a
seventh well (MW-4) but invalidated the results because the water level was below the well’s
screen opening (see Appendix A). OIG analysts were present to ensure that proper sampling,
site inspection, and quality assurance protocols were followed.

We followed the same sampling methods and protocols used in the long-term monitoring
program. Before sampling, we measured water levels and then purged each well of three well
casing volumes of water, or until we drained the well dry. We then sampled each well using a
disposable bailer. Samples for dissolved metal analyses were passed through disposable filters
attached directly to the bailer, pressurized using a hand-powered pump. We recorded
temperature, pH, oxidation-reduction potential, dissolved oxygen concentration, and turbidity of
the bailed water, after removing the samples for laboratory analyses.

Two laboratories analyzed the samples for concentrations of volatile organic compounds,
semivolatile organic compounds, and dissolved metals using EPA-approved methods. Due to the
limitations of the scope of our evaluation, the laboratories did not analyze for other contaminants
typically monitored in drinking water, such as nitrate.

Data Analyses
We analyzed our sampling results to determine whether Region 6 has been obtaining valid and
reliable data on ground water conditions at PAB. First, we compared our results to historical
data collected from 2000 through 2007 to determine whether our data were consistent with data
Region 6 has been receiving from the responsible parties. OIG results greater than two standard
deviations above average historical concentrations were deemed to be different from the
historical data. We also evaluated our results in the context of applicable standards and their
potential effect on Region 6’s protectiveness determination for PAB. This required us to identify
all OIG results that exceeded federal drinking water standards.

We did not include invalid data resulting from water levels that were below the bottom of the
well’s screen opening at the time the measurement and sample were taken. This was the case for
most of the water level and all of the water quality data from wells MW-3 and MW-4. We also
did not include the data Region 6 contractors collected from well MW-4 in 2005 as part of the
Hurricane Rita assessment, because the validity of the sample could not be determined as a water
level was not measured.


                                                11 

                                                                                     10-P-0229 





Results of Comparisons and Site Inspection
Aside from most of the data from two problematic wells (MW-3 and MW-4), our sampling
results confirm that Region 6 had received valid data on ground water conditions at PAB. Our
laboratory results showed no organic compounds or metals above safe levels for drinking water.
Our results were consistent with those Region 6 had received in the long-term monitoring reports
(2000 through 2007) and used in the 2007 Five-Year Review for PAB. Our site inspection in
March 2008 showed that the responsible parties were properly maintaining the site in accordance
with the EPA-approved operation and maintenance plan. We observed that the clay cap covering
wastes was well maintained. We observed several breaches in the perimeter fence, which
Region 6 also noted in its 2007 Five-Year Review. The responsible parties reported to Region 6
in October 2008 that they had repaired the fence.




                                              12 

                                                                                        10-P-0229 





                                                                                    Appendix C

              EPA Region 6 Response to Draft Report
                       and OIG Evaluation

                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                           REGION 6 

                                 1445 ROSS AVENUE, SUITE 1200 

                                     DALLAS TX 75202-2733 


                                         August 20, 2010


MEMORANDUM

SUBJECT:	 Draft Evaluation Report: PAB Oil and Chemical Services, Inc. Site

FROM: 	        Al Armendariz
               Region 6 Administrator

TO: 	          Carolyn Cooper
               Director for Program Evaluation
               Hazardous Waste Issues

       On July 19, 2010, you provided me with a summary of concerns which led you to
conclude that the Environmental Protection Agency (EPA) should improve oversight of long-
term monitoring at the PAB Oil and Chemical Services, Inc. (PAB) Superfund site in Abbeville,
Louisiana.

        The EPA continues to seek ways to improve its oversight of remedial activities at all of
its Superfund sites, and certainly your comments have assisted us in this endeavor. We
appreciate your agreement with our conclusion that the monitoring data issues did not affect the
protectiveness finding of the remedy.

        We appreciate your comments concerning the PAB site and I look forward to your
assistance in resolving any concerns regarding the long-term monitoring data issues at the site.

Attachments

 OIG Response 1: The OIG acknowledges the Region’s commitment to resolving long-
 term monitoring issues at the site.




                                                 13 

                                                                                        10-P-0229 





 Region 6 Response to the Office of Inspector General’s (OIG) Draft Report on the Long-
              Term Oversight Monitoring at the PAB Oil Superfund Site


       This document transmits the Region 6 response and comments on the OIG’s draft
evaluation report on the EPA oversight of long-term monitoring at PAB Oil and Chemical
Services, Inc. Superfund Site in Abbeville, Louisiana. The EPA notes the OIG determined the
oversight issues it identified at the PAB site did not affect the EPA’s remedy protectiveness
determination.

       Region 6 would like to offer comments on a few specific issues that you raised in your
evaluation.

Region 6 Response

Report Title: EPA Should Improve Oversight of Long-term Monitoring at PAB Oil and
Chemical Services, Inc. Superfund Site in Louisiana

Narrative Response: The title of the evaluation does not reflect the conclusions in the draft
report. The draft report concluded that the invalid water quality and water level data identified
by the OIG was not used by the EPA in assessing the protectiveness of the remedy. In addition,
the draft report indicated that the invalid data does not have adverse implications concerning the
determination of whether or not the remedy protects humans and the environment. The only
finding in the draft report concerning the invalid data was the EPA did not address the invalid
data in any correspondence related to the site.

Proposed Revision: The title of the evaluation should be re-written. “EPA Should Clarify Long-
Term Monitoring Data Issues at the PAB Oil and Chemical Services, Inc. Superfund Site in
Louisiana”

 OIG Response 2: The OIG does not agree that revisions are needed. The OIG did not 

 conclude that the oversight weaknesses we identified would never lead to an 

 unacceptable outcome, and such a conclusion cannot be reached. Rather, the OIG 

 concluded that improvements are needed to ensure that the oversight weaknesses we 

 identified do not cause problems in the future. Specifically, the OIG states in the At a 

 Glance: “if ground water conditions were to change, the invalid data could impede the 

 Region’s ability to determine whether the site’s clean-up remedy is still protective and 

 whether the network of ground water monitoring wells remains effective.” 





                                                14 

                                                                                        10-P-0229 



At A Glance, What We Found: EPA included invalid data in its analyses. Paragraph 1, 2nd
Sentence

Narrative Response: In the second sentence of “At A Glance, What We Found”, you indicate
that the EPA included invalid data in our analyses. This is contrary to the conclusions in the
draft report.

The draft report concluded that the invalid water quality and water level data identified by the
OIG was not used by the EPA in assessing the protectiveness of the remedy. In addition, the
draft report indicated that the invalid data does not have adverse implications concerning the
determination of whether or not the remedy protects humans and the environment. The only
finding in the draft report concerning the invalid data was the EPA did not address the invalid
data in any correspondence related to the site.

Proposed Revision: To make this sentence consistent with the conclusions of the draft report the
phrase “and included that invalid data in its analyses” should be deleted from the 2nd sentence.

 OIG Response 3: The OIG does not agree with this comment and no change was 

 made. The OIG did not conclude that the invalid data were not used in the 

 protectiveness determination. The OIG concluded that the water quality data from the 

 two problem wells were not needed to determine protectiveness, as “ground water flows 

 past the two problem wells and then under the part of the site where soil and wastes 

 were treated, consolidated, and capped.” 


 Region 6 did not provide the OIG with any documentation that shows the invalid water 

 quality data was excluded from its analyses. We did observe that Region 6 included 

 invalid water quality data in the data table and discussion in the 2007 Five-Year Review. 

 Region 6 did not include water level data in the Five-Year Review report. As discussed 

 in the report, the monitoring reports submitted to Region 6 by the responsible parties’

 contractor included invalid water level data, which sometimes led to interpretations of

 the direction of ground water flow that differed from the conceptual model that ground 

 water flow was uniformly to the northwest. Region 6 has provided no evidence that it 

 conducted its own analyses of the ground water flow direction that excluded the invalid 

 water level data. As such, the monitoring reports stand as the analyses of record for 

 water level information and ground water flow direction for the site. 


 While the OIG recognizes that the inclusion of invalid water quality data did not have 

 negative implications for Region 6’s 2007 decision on site protectiveness, this cannot be 

 guaranteed in the future. The OIG must disclose that invalid data were included and 

 recommend improvements in Region 6’s oversight so that this does not happen in the 

 future. The OIG believes Region 6 would want to be aware of weaknesses in its 

 oversight and address those weaknesses so that human health and the environment 

 remain protected. 





                                                15 

                                                                                         10-P-0229 



Chapter 1, Introduction, Background: Page 1, Paragraph 3

Narrative Response: This section uses the term “Reviews” without a specific explanation. It is
clear to us that you mean Five Year Reviews, but someone unfamiliar with EPA activities might
not understand the context of this term.

Proposed Revision: While redundant, it is suggested that you use the full term, “Five Year
Review” instead of the term “Reviews”.

 OIG Response 4: The OIG agrees and has made this change throughout the final
 report.

Chapter 1, Introduction, Noteworthy Achievements: Page 2, Paragraph 2

Narrative Response: This section uses the term “Reviews” without a specific explanation. It is
clear to us that you mean Five Year Reviews, but someone unfamiliar with EPA activities might
not understand the context of this term.

Proposed Revision: While redundant, it is suggested that you use the full term, “Five Year
Review” instead of the term “Reviews”.

 OIG Response 5: The OIG agrees and has made this change throughout the final
 report.


Chapter 1, Introduction, Scope and Methodology: Page 2, Paragraph 1

Narrative Response: It is our understanding that the OIG initiated the performance evaluation
for the PAB Oil site on May 29, 2007.

 OIG Response 6: The OIG does not agree with this comment. Although EPA was
 notified in May 2007 and sites were selected in August 2007, we did not begin our field
 work at PAB until January 2008, which is when we sent our technical directive to the
 OIG contractor in preparation for our sampling.

Chapter 2, Region 6 Included Invalid Data in Groundwater Analyses, Page 3

Narrative Response: The title of this section does not reflect the conclusions indicated in the
draft report.

The draft report concluded that the invalid water quality and water level data identified by the
OIG was not used by the EPA in assessing the protectiveness of the remedy. In addition, the
draft report indicated that the invalid data does not have adverse implications concerning the
determination of whether or not the remedy protects humans and the environment. The only



                                                16 

                                                                                        10-P-0229 



finding in the draft report concerning the invalid data was the EPA did not address the invalid
data in any correspondence related to the site.

Proposed Revision: To make the title consistent with the conclusions of the draft report it should
be changed to “Region 6 should clarify the use of various data in Groundwater Analyses” .

 OIG Response 7: The OIG does not agree with this comment and no change was made
 to the chapter title. See OIG Response 3.

Chapter 2, Region 6 Included Invalid Data in Groundwater Analyses: Page 3, Paragraph
1, 1st sentence

Narrative Response: The first sentence in this section states that the EPA included the invalid
data in its analyses. This is contrary to the conclusions in the draft report.

The draft report concluded that the invalid water quality and water level data identified by the
OIG was not used by the EPA in assessing the protectiveness of the remedy. In addition, the
draft report indicated that the invalid data does not have adverse implications concerning the
determination of whether or not the remedy protects humans and the environment. The only
finding in the draft report concerning the invalid data was the EPA did not address the invalid
data in any correspondence related to the site.

Proposed Revision: To make this sentence consistent with the conclusions of the draft report the
phrase “and included that invalid data in its analyses” should be deleted from the 1st sentence.

 OIG Response 8: Phrase was not deleted. See OIG Response 3.


 OIG Response 9: Region 6 did not provide specific concurrence to Recommendation
 2-1 in this August 2010 response. In response to an earlier draft in April 2010, Region 6
 stated it “will identify the invalid data in an addendum to the 2007 Five Year Review
 Report.” In the exit conference held between the OIG and Region 6 personnel on
 August 30, 2010, the Remedial Project Manager reaffirmed Region 6’s commitment to
 issuing an addendum to the 2007 Five-Year Review Report.

 This recommendation is designated as “undecided” in the final OIG report. In its
 90-day response to this report, Region 6 should provide an actual or estimated milestone
 date for completion of Recommendation 2-1 or state its nonconcurrence if it does not
 agree.




                                                17 

                                                                                        10-P-0229 



Chapter 2, Region 6 Included Invalid Data in Groundwater Analyses Recommendations,
Page 5, Paragraph 2-2

Narrative Response: This recommendation indicates that the long-term monitoring plan for the
site should be modified to ensure the responsible parties collect and report valid information on
site groundwater level and groundwater quality conditions.

Pursuant to our response to the OIG on May 19, 2009, EPA had the responsible party update the
groundwater monitoring procedures in the Operations and Maintenance Plan. The updated
Operations and Maintenance Plan was completed on August 17, 2009. A copy of the updated
Operations and Maintenance Plan was provided to the OIG on September 1, 2009. A copy of the
updated Operations and Maintenance Plan is attached to these comments to facilitate your
review.

Proposed Revision: Since the Operations and Maintenance Plan has been updated as
recommended in the draft report, we suggest that this recommendation be designated as
“closed”.


OIG Response 10: The OIG does not agree with this comment and did not change the status of
Recommendation 2-2 to closed. The OIG acknowledges that the operation and maintenance plan
was updated on August 17, 2009, and Region 6 provided the plan to us on September 1, 2009.
The updated plan mentions the problem with the water level being too low for two wells and that
the responsible parties’ contractor was conducting quarterly monitoring to “provide an optimum
timeframe to gauge these specific wells (i.e., when the water table is above the screened
intervals).” We recognize that this is a reasonable first step that would help the responsible
parties and their contractor better understand the problem. However, the action does not
completely address OIG Recommendation 2-2, which calls for “procedures that ensure the
Region and the responsible parties collect and report valid information on site ground water level
and ground water quality conditions.”

The water level was below the bottom of well MW-4’s screen opening all four times it was
measured in 2009 and three of the four times for MW-3, according to the monitoring report
submitted to Region 6 on March 10, 2010. We agree with the monitoring report conclusion that
“the existing network of wells on the site is sufficient to establish groundwater gradient without
the use of these two wells,” as long as flow conditions remain uniformly to the northwest.
However, to fully meet the intent of OIG Recommendation 2-2, procedures should be established
and followed for identifying when the water level is too low and for how this will be
documented. These procedures are especially important because another monitoring well,
MW-2, has a screen set high enough that it too is in danger of being unusable if water levels
were to drop further.




                                                18 

                                                                                        10-P-0229 




 OIG Response 10, continued:

 In the exit conference held between the OIG and Region 6 personnel on August 30, 2010, we
 discussed the nature of these needed procedures. The Region 6 remedial project manager
 committed to meeting the intent of OIG Recommendation 2-2 by updating the 2009 operation
 and maintenance plan.

 Recommendation 2-2 is designated in the final OIG report as “undecided with resolution 

 efforts in progress.” In its 90-day response, the Region should provide an acceptable 

 corrective actions plan or state the reasons for maintaining its current proposed actions. 



Status of Recommendations and Potential Monetary Benefits, Page 6, Recommendation 2-2

Narrative Response: This recommendation indicates that the long-term monitoring plan for the
site should be modified to ensure the responsible parties collect and report valid information on
site groundwater level and groundwater quality conditions.

Pursuant to our response to the OIG on May 19, 2009, EPA had the responsible party update the
groundwater monitoring procedures in the Operations and Maintenance Plan. The updated
Operations and Maintenance Plan was completed on August 17, 2009. . A copy of the updated
Operations and Maintenance Plan was provided to the OIG on September 1, 2009. A copy of the
updated Operations and Maintenance Plan is attached to these comments to facilitate your
review.

Proposed Revision: Since the Operations and Maintenance Plan has been updated as
recommended in the draft report, we suggest that this recommendation be designated as
“closed”.

 OIG Response 11: The OIG does not agree with this comment. See OIG Response 10 

 for our reasons for considering the August 2009 revision of the operation and 

 maintenance plan to be inadequate for meeting OIG Recommendation 2-2. Based on the 

 discussion held in the August 30, 2010, exit conference, we expect Region 6 to include 

 plans to update the 2009 operation and maintenance plan in its response to this final 

 report. The recommendation resolution is designated as “undecided with resolution 

 efforts in progress.” 



Appendix B, Details on Invalid Groundwater Level Data, Page 9, Paragraph 3, Last
sentence

Narrative Response: This sentence indicates that the EPA should have questioned the validity of
a February 2009 map generated by the responsible parties and by not doing so, demonstrated a
problem in its oversight of the PAB monitoring activities.




                                                19 

                                                                                        10-P-0229 



As indicated in EPA’s response to the OIG on May 19, 2009, EPA’s oversight was not flawed
since EPA did not use invalid data in determining the ground water flow direction based upon
the February 2009 water level data. However, the only issue was EPA did not have the
responsible party revise the February 2009 map to not utilize the invalid data.

Proposed Revision: Delete the sentence “Region 6 should have questioned the validity of the
map; by not doing so, Region 6 demonstrated a problem in its oversight of the PAB monitoring
activities” and replace it with the following sentence - “While Region 6 determined that the
groundwater flow direction based upon the February 2009 water levels was consistent with the
historical northwest direction, Region 6 should have required the responsible party to revise the
map to not include the invalid water level data.”

 OIG Response 12: The OIG does not agree with these suggested changes. The OIG 

 has no evidence that Region 6 questioned or was aware that there was a problem with 

 the validity of the map. Region 6’s acknowledgement that it did not have the 

 responsible party revise the map does not address the OIG’s finding that the cause for 

 this was lack of the Region’s awareness or oversight. 





                                                20 

                                                                                  10-P-0229


                                                                               Appendix D

                                    Distribution

Office of the Administrator
Assistant Administrator, Office of Solid Waste and Emergency Response
Regional Administrator, Region 6
Principal Deputy Assistant Administrator, Office of Solid Waste and Emergency Response
Director, Office of Superfund Remediation and Technology Innovation, Office of Solid Waste
       and Emergency Response
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-up Coordinator, Region 6
Inspector General




                                             21 

